            DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                            Office of Inspector General



                                                                                               Washington, D,C. 20201



                                                   'APR 26 ZOll


    TO: 	           Donald M. Berwick, M.D. 

                    Administrator 

                    Centers for Medicare & Medicaid Services 


                                         /S/
    FROM:           Stuart Wrigh~    

                    Deputy Inspector General 

                     for Evaluation and Inspections 



    SUBJECT: 	 Memorandum Report: Part D Plans Generally Include Drugs Commonly
               Used by Dual Eligibles, OEI-05-10-00390


This memorandum report fulfills a mandate for 2011 from the Patient Protection and
Affordable Care Act of2010 (ACA). The ACA requires that the Office ofInspector
General (OIG) conduct a study of the extent to which formularies used by stand-alone
prescription drug plans (PDP) and Medicare Advantage prescription drug plans (MA-PD)
under Medicare Part 0 include drugs commonly used by full-benefit dual-eligible
individuals (i.e., individuals who are eligible for both Medicare and Medicaid and who
receive full Medicaid benefits and assistance with Medicare premiums and cost-sharing). I
Pursuant to the ACA, beginning July 1, 2011, OIG must annually issue a report with
recommendations as appropriate. For the relevant text of the ACA, see Appendix A.

SUMMARY
The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
makes comprehensive prescription drug coverage under Medicare Part 0 available to all
Medicare beneficiaries through POPs and MA-POs (hereinafter referred to collectively as
Part 0 plans).2

For beneficiaries who are eligible for both Medicare and Medicaid (hereinafter referred to
as dual eligibles), Medicare covers Part D plan premiums, deductibles, and other
cost-sharing up to a determined premium benchmark that varies by region. If a dual
eligible enrolls in a Part 0 plan with premiums higher than the regional benchmark, the
dual eligible is responsible for paying the premium amount above the regional
benchmark.



I   ACA, P.L. 111-148 § 3313(a), 42 U.S.C. § 1395w-101 note. 

2   MMA, P.L. 108-173 § 101, Social Security Act, § I 860D-I(a), 42 U.S.C. § 1395w-IOI(a). 



OEI-05-10-00390        Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 2 – Donald M. Berwick, M.D.


To control costs and ensure the safe use of drugs, Part D plans are allowed to establish
formularies from which they may omit drugs from prescription coverage and control drug
utilization through utilization management tools. 3 These tools include prior
authorization, quantity limits, and step therapy. 4

The Centers for Medicare & Medicaid Services (CMS) annually reviews Part D plan
formularies to ensure that they include a range of drugs in a broad distribution of
therapeutic classes. CMS also assesses the utilization management tools present in each
formulary.

For this memorandum report, we determined whether the 249 unique formularies used by
the 3,072 Part D plans operating in 2011 cover the 200 drugs most commonly used by
dual eligibles. We also determined the extent to which those commonly used drugs are
subject to utilization management tools. To create the list of the 200 drugs most
commonly used by dual eligibles, we used the 2007 Medicare Current Beneficiary
Survey (MCBS). Of these 200 drugs, 191 are eligible for Part D prescription drug
coverage and 9 are excluded from coverage.

Overall, we found that the rate of Part D plan formularies’ inclusion of the 191 drugs
commonly used by dual eligibles is high, with some variation. On average, Part D plan
formularies include 96 percent of the 191 commonly used drugs. In addition, almost
60 percent of the commonly used drugs are included by all Part D plan formularies.
However, we found variation in the rate at which Part D plan formularies apply
utilization management tools to the drugs commonly used by dual eligibles. Some Part D
plan formularies apply these tools to none of the commonly used drugs, whereas at the
other end of the range, other formularies apply the tools to 45 percent of the commonly
used drugs. For CMS’s reference, we have included in Appendix D the list of 200 drugs
commonly used by dual eligibles.

BACKGROUND

The Medicare Prescription Drug Benefit
Beginning in 2006, the MMA made comprehensive prescription drug coverage under
Medicare Part D available to all Medicare beneficiaries. 5 Medicare beneficiaries
generally have the option to enroll in a PDP and receive all other Medicare benefits

3
  A formulary is a list of drugs covered by a Part D plan. Part D plans can exclude drugs from their
formulary and can control drug utilization for drugs on the formulary within certain parameters. Social
Security Act § 1860D-4(b) & (c), 42 U.S.C. § 1395w-104(b) & (c).
4
  Prior authorization—often required for very expensive drugs—requires that physicians obtain approval
from Part D plans to prescribe a specific drug. Quantity limits are intended to ensure that beneficiaries
receive the proper dose and recommended duration of drug therapy. Step therapy is the practice of
beginning drug therapy for a medical condition with the most cost-effective or safest drug therapy and
progressing if necessary to more costly or risky drug therapy.
5
  MMA, P.L. 108-173 § 101, Social Security Act, § 1860D-1(a), 42 U.S.C. § 1395w-101(a).


OEI-05-10-00390      Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 3 – Donald M. Berwick, M.D.


through fee-for-service, or to enroll in an MA-PD and receive all of their Medicare
benefits, including prescription drug coverage, through managed care. As of
January 2011, almost 30 million of the 46 million Medicare beneficiaries were enrolled in
a Part D plan. 6, 7

Part D plans are administered by private companies, known as plan sponsors, that
contract with CMS to offer prescription drug coverage in one or more PDP or MA-PD
regions. CMS has designated 34 PDP regions and 26 MA-PD regions. 8 In 2011, plan
sponsors offer 3,072 unique Part D plans, with many plan sponsors offering multiple
Part D plans.

Dual Eligibles Under Medicare Part D
Approximately 9 million Medicare beneficiaries are dual eligibles. About 7 million dual
eligibles, referred to as “full-benefit dual eligibles,” receive full Medicaid benefits and
assistance with Medicare premiums and cost-sharing. 9 Other dual eligibles receive
assistance with only their Medicare premiums or cost-sharing, depending on their level of
income and assets.

Dual eligibles are a particularly vulnerable population. Overall, these beneficiaries are
poorer and in worse health than the average Medicare beneficiary. Most dual eligibles
have very low incomes: 61 percent have annual incomes below $10,000, compared to
9 percent of all other Medicare beneficiaries. Over half of dual eligibles are in fair or
poor health, twice the rate of others in Medicare. 10 As a consequence of their health
needs, dual eligibles typically require and use more prescription drugs, and more health
care services in general, than other Medicare beneficiaries.

Until December 31, 2005, dual eligibles received outpatient prescription drug benefits
through Medicaid. In January 2006, Medicare began covering outpatient prescription
drugs for dual eligibles through Part D plans. 11

Medicare covers Part D plan premiums, deductibles, and other cost-sharing for dual
eligibles up to a determined premium benchmark. The benchmark is a statutorily defined
amount that is based on the average premium amounts for Part D plans for each

6
  CMS, Medicare Advantage, Cost, PACE, Demo, and Prescription Drug Plan Contract Report—Monthly
Summary Report (data as of January 2011). Accessed at http://www.cms.hhs.gov on January 20, 2011.
7
  Medicare Board of Trustees, The 2010 Annual Report of the Boards of Trustees of the Federal Hospital
Insurance and Federal Supplementary Medical Insurance Trust Funds. Accessed at
http://www.cms.hhs.gov on January 20, 2011.
8
  CMS, Prescription Drug Benefit Manual (PDBM), Pub. 100-18, ch. 5, Appendixes 3 and 4. Accessed at
http://www.cms.hhs.gov on May 5, 2010.
9
  Kaiser Family Foundation, Dual Eligibles: Medicaid’s Role for Low-Income Beneficiaries,
February 2009. Accessed at http://www.kff.org on May 7, 2010.
10
   Ibid.
11
   MMA, P.L. 108-173 § 101.


OEI-05-10-00390     Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 4 – Donald M. Berwick, M.D.


region. 12, 13 If dual eligibles enroll in Part D plans with premiums higher than the
regional benchmark, they are responsible for paying the premium amounts above the
regional benchmark. 14

Dual eligibles’ assignment to Part D plans. When individuals become eligible for both
Medicaid and Medicare, CMS randomly assigns those individuals to PDPs unless they
have elected a specific Part D plan or have opted out of Part D prescription drug
coverage. 15 CMS assigns dual eligibles to PDPs that meet certain requirements, such as
having a premium at or below the regional benchmark amount and offering basic
prescription drug coverage (or equivalent). 16 Basic prescription drug coverage is defined
in terms of benefit structure (initial coverage, coverage gap, and catastrophic coverage),
and costs (initial deductible and coinsurance).

Some dual eligibles may be randomly assigned to Part D plans that do not cover the
specific drugs they use. However, unlike the general Medicare population, dual eligibles
can switch plans at any time to find Part D plans that cover the prescription drugs they
require. 17 When dual eligibles change plans, prescription drug coverage for their new
Part D plans becomes effective at the beginning of the following month.

CMS annually reassigns some dual eligibles to new PDPs if their current PDPs will have
premiums above the regional benchmark premium for the following year. 18 For dual
eligibles who were randomly assigned to their current PDPs, CMS reassigns them to new
PDPs that will have premiums at or below the regional benchmark premium. 19 For dual
eligibles who elected their current Part D plans, CMS notifies them that their plans will
have premiums above the regional benchmark premium. According to CMS staff, CMS
reassigned approximately 900,000 Medicare beneficiaries, including but not exclusively
dual eligibles, for 2011 because of premium increases.




12
   42 CFR. § 423.780(b)(2)(i).
13
   Social Security Act, § 1860D-14(a)(3)(f), 42 U.S.C. § 1395w-114(a)(3)(f). Dual eligibles residing in
territories are not eligible to receive cost-sharing assistance from Medicare. As such, there are no
benchmarks for Part D plans offered in the territories.
14
   ACA, P.L. 111-148 § 3303, Social Security Act, § 1860D 14(a)(5), 42 U.S.C. § 1395w-114(a)(5). The
ACA established a “de minimis” premium policy, whereby a Part D plan may elect to charge dual eligibles
the benchmark premium amount if the Part D plan’s basic premium exceeds the regional benchmark by a
de minimis amount. For 2011, CMS set the de minimis amount at $2 above the regional benchmark.
15
   PDBM, ch. 3, § 30.1.4.
16
   Ibid.
17
   Ibid., §§ 20.2 and 20.3. In general, Medicare beneficiaries can switch Part D plans only once a year
during a defined enrollment period.
18
   Ibid., § 30.1.5.
19
   Ibid.


OEI-05-10-00390     Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 5 – Donald M. Berwick, M.D.


Part D Prescription Drug Coverage
Under Part D, plans can establish formularies from which they may exclude drugs and
control drug utilization within certain parameters. These parameters are intended to
balance Medicare beneficiaries’ needs for adequate prescription drug coverage with
Part D plans’ needs to contain costs. Generally, a formulary must include at least two
drugs in each therapeutic category or class. 20, 21 In addition, Part D plans must include
Part D-covered drugs in certain categories and classes. 22

Part D plans may also control drug utilization by applying utilization management tools
to individual drugs to encourage the use of generic or older drugs and to prevent
overutilization or underutilization of drugs. These tools include requiring prior
authorization to obtain drugs that are on plan formularies, establishing quantity limits,
and requiring step therapy. 23

The MMA mandates that certain categories of drugs be excluded from Medicare Part D
prescription drug coverage. 24 For example, prescription vitamins and mineral products,
nonprescription drugs, barbiturates, and benzodiazepines are excluded from Part D
prescription drug coverage. 25

CMS Efforts To Ensure Prescription Drug Coverage
Formulary review. CMS annually reviews Part D plan formularies to ensure that they
include a range of drugs in a broad distribution of therapeutic categories or classes and
include all drugs in specified therapeutic categories or classes. 26 During its formulary
review, CMS analyzes Part D plan formularies’ coverage of the drug classes most
commonly prescribed for the Medicare population. CMS intends for Part D plans to
cover the most widely used medications, or therapeutically alternative medications (e.g.,
drugs from the same therapeutic category or class), for the most common conditions.
CMS uses Part D prescription drug data to identify the most commonly prescribed classes
of drugs. 27

CMS also assesses the utilization management tools present in each formulary. 28 CMS
aims to ensure that these tools are consistent with current industry standards and with


20
   PDBM, ch. 6, § 30.2.1.
21
   Therapeutic categories or classes classify drugs according to their most common intended uses. For
example, cardiovascular agents compose a therapeutic class intended to affect the rate or intensity of
cardiac contraction, blood vessel diameter, or blood volume.
22
   ACA, P.L. 111-148 § 3307, Social Security Act, § 1860D 4(b)(3)(G), 42 U.S.C. § 1395w 104(b)(3)(G).
23
   PDBM, ch. 6, § 30.2.2.
24
   MMA, P.L. 108-173 § 101, Social Security Act, § 1860D-2(e), 42 U.S.C. § 1395w-102(e).
25
   Social Security Act §§ 1860D-2(e)(2), 1927(d)(2), 42 U.S.C. §§ 1395w-102(e)(2), 1396r-8(d)(2).
26
   PDBM, ch. 6, §§ 30.2.1 and 30.2.5.
27
   Ibid., § 30.2.7.
28
   Ibid., § 30.2.2.


OEI-05-10-00390     Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 6 – Donald M. Berwick, M.D.


standards that are widely used with drugs for the elderly and people with disabilities. 29, 30
For example, some drugs may be considered entirely inappropriate for the elderly, while
others may be considered inappropriate for the elderly at certain dosages or in
combination with certain other drugs. Utilization management tools are used to prevent
the prescription of these drugs, dosages, and combinations.

Exceptions and appeals process. CMS has implemented an exceptions and appeals
process whereby beneficiaries can request coverage of nonformulary drugs.
Beneficiaries apply to their Part D plans for exceptions to obtain coverage of
nonformulary drugs. Generally, Part D plans must make determinations within 72 hours
or, for expedited requests, within 24 hours. 31 If their Part D plans make negative
determinations, beneficiaries have the right to appeal. 32 If their Part D plans deny their
appeals, beneficiaries would need to get prescriptions from their physicians for
therapeutically alternative drugs that are covered by their Part D plans.

Transitioning new enrollees to Part D. CMS requires that Part D plans establish a
transition process for new enrollees (including dual eligibles) who are transitioning to
Part D from other prescription drug coverage. During Medicare beneficiaries’ first
90 days under a new Part D plan, the new plan must provide one temporary fill of a
prescription when beneficiaries request either a drug that is not in the plan’s formulary or
a drug that requires prior authorization or step therapy under the formulary’s utilization
management tools. 33 The temporary fill accommodates beneficiaries’ immediate drug
needs the first time they attempt to fill a prescription. The transition period also allows
beneficiaries time to work with their prescribing physicians to obtain prescriptions for
therapeutically alternative drugs or request formulary exceptions from Part D plans.

Related Office of Inspector General Work
In 2006, OIG published a report assessing the extent to which PDP formularies included
drugs commonly used by dual eligibles under Medicaid. The study found that PDP
formularies included between 76 and 100 percent of the 178 commonly used drugs that
we reviewed. Approximately half of the 178 commonly used drugs were covered by all
formularies. 34




29
   PDBM, ch. 6, § 30.2.2.
30
   CMS looks to appropriate guidelines that might be found from expert organizations such as the National
Committee for Quality Assurance, the Academy of Managed Care Pharmacy, and the National Association
of Insurance Commissioners.
31
   PDBM, ch. 18, §§ 130.1 and 130.2.
32
   Ibid., § 60.1.
33
   Ibid., ch. 6, § 30.4.4.
34
   OIG, Dual Eligibles’ Transition: Part D Formularies’ Inclusion of Commonly Used Drugs,
OEI-05-06-00090, January 2006.


OEI-05-10-00390      Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 7 – Donald M. Berwick, M.D.


METHODOLOGY

Scope
As mandated in the ACA, this study assessed the extent to which drugs commonly used
by dual eligibles are available on Part D plan formularies. To make this assessment, we
evaluated formularies for Part D plans operating in 2011. As part of our assessment, we
included dual eligibles’ enrollment data from February 2011, the most recent enrollment
data available from CMS at the time of our study.

The ACA did not define which drugs commonly used by dual eligibles we should review.
We defined drugs commonly used by dual eligibles as the 200 drugs with the highest
utilization by dual eligibles as reported in the 2007 MCBS. We used the MCBS because
it contains drugs that dual eligibles received through multiple sources (e.g., Part D,
Medicaid, and the Department of Veterans Affairs) and, as such, it provides a
comprehensive picture of drug utilization. Of the 200 most commonly used drugs
identified using the MCBS, 191 are eligible under Part D.

This study went beyond the ACA’s mandate by reviewing drug coverage for all dual
eligibles under Medicare Part D, rather than only for full-benefit dual eligibles. With the
data available for this study, we could not confidently identify full-benefit dual eligibles
and the drugs they used. However, dual eligibles represent a vulnerable population as a
whole, and 80 percent of dual eligibles are full-benefit dual eligibles.

We also went beyond the ACA’s mandate by examining the utilization management tools
that Part D plan formularies apply to the drugs commonly used by dual eligibles.
Because these utilization management tools are used to influence drug utilization, they
may affect dual eligibles’ access in cases where formularies include the commonly used
drugs. Analyzing the extent to which Part D plan formularies apply utilization
management tools to drugs commonly used by dual eligibles allows us to provide a
comprehensive picture of Part D plan formularies’ coverage of, and dual eligibles’ access
to, those drugs.

Data Sources
MCBS. We used 2007 MCBS Cost and Use data to create a list of 200 drugs commonly
used by dual eligibles. The MCBS Cost and Use data contain information on hospitals,
physicians, and prescription drug costs and utilization. The 2007 MCBS Cost and Use
data are the most recent data available.

The MCBS is a CMS-conducted continuous, multipurpose survey of a representative
national sample of the Medicare population, including dual eligibles. Sampled Medicare
beneficiaries are interviewed three times per year and asked what drugs they are taking
and whether they have started taking any new drugs since the previous interview. The
MCBS also includes Part D prescription drug events for surveyed Medicare beneficiaries.



OEI-05-10-00390   Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 8 – Donald M. Berwick, M.D.


In 2007, the MCBS surveyed 11,995 Medicare beneficiaries, of which 2,324 were dual
eligibles who had used prescription drugs during the year (out of a total of
2,555 dual-eligible survey respondents).

First Databank National Drug Data File. We used the January 2011 First DataBank
National Drug Data File to identify the drug product information for the drugs on our list
of 200 drugs commonly used by dual eligibles. The National Drug Data File is a
database containing information—such as drug name, therapeutic class, and the unique
combination of active ingredients—for each drug defined by the Food and Drug
Administration’s (FDA) National Drug Code (NDC). (An NDC is a three-part universal
identifier that specifies the drug manufacturer’s name, the drug form and strength, and
the package size.)

Part D plan data. From CMS, we collected Part D plan and formulary data for Part D
plans operating in 2011. The 2011 Part D plan data provide information such as the State
in which a Part D plan is offered, whether the Part D plan is a PDP or an MA-PD, and
whether the Part D plan premium is below the regional benchmark. The 2011 Part D
formulary data include Part D plans’ formularies and utilization management tools. In
2011, there are 249 unique formularies offered by the 3,072 Part D plans.

We also collected 2011 Part D plan enrollment data. These data provide the number of
dual eligibles enrolled in each Part D plan as of February 2011.

Determining Most Commonly Used Drugs
To determine the drugs most commonly used by dual eligibles, we took the following
steps:

   1. Created a list of all drugs reported by dual eligibles surveyed in the MCBS. We
      excluded respondents from territories because they are not eligible to receive
      cost-sharing assistance under Part D. There were 164,926 drug events listed for
      2,324 dual eligibles in the MCBS.

   2. Collapsed this list to a list of drugs based on their active ingredients, using the
      Ingredient List Identifier located in First DataBank’s National Drug Data File.
      For example, a multiple-source drug such as fluoxetine hydrochloride (the active
      ingredient for the multiple-source brand-name drug Prozac) has only one entry on
      our list, covering all strengths of both the brand-name drug Prozac and the generic
      versions of fluoxetine hydrochloride available. From this point forward, unless
      otherwise stated, we will use the term “drug” to refer to any drug in the same
      Ingredient List Identifier category, and the term “unique drug” to refer to an NDC
      corresponding to a drug. (A given drug can have multiple NDCs.) This process
      left 163,554 drug events associated with 910 drugs. (There were 1,372 drug




OEI-05-10-00390   Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 9 – Donald M. Berwick, M.D.


       events in the MCBS that could not be matched with an Ingredient List Identifier
       in First DataBank’s National Drug Data File.)

   3. Ranked all drugs by their frequency of utilization based on weighting from the
      MCBS sample design.

   4. Selected the 200 drugs with the highest utilization by dual eligibles.

   5. Removed all drugs excluded under Part D. Of the 200 drugs with the highest
      utilization, 191 are eligible under Part D and 9 fell into drug categories excluded
      under Part D. For a list of the nine excluded drugs, see Appendix B.

Formulary Analysis
We analyzed the 249 unique Part D plan formularies to determine formulary inclusion
rates for the 191 drugs commonly used by dual eligibles. We counted a drug as included
in a Part D plan’s formulary if the formulary included the active ingredient category.
When a drug included multiple ingredients, and the ingredients could be dispensed
separately and combined by the patient to the same effect as the combined drug, then we
treated the drug as included if the ingredients were included in the formulary either
separately or in combination.

Utilization management tools. In addition, we determined the extent to which Part D
plans apply utilization management tools to the 191 drugs that we reviewed. The tools
that we reviewed are prior authorization, quantity limits, and step therapy.

To determine the extent to which the 191 commonly used drugs are subject to utilization
management tools, we conducted an analysis of the NDCs that correspond to the
commonly used drugs. Part D plan formularies do not apply utilization management
tools at the active ingredient level. Rather, Part D plan formularies apply utilization
management tools at a more specific level that identifies whether a drug is brand-name or
generic and provides its dosage form, strength, and route of administration, irrespective
of package size. To conduct this analysis, we determined the NDCs (unique drugs)
associated with each of the 191 commonly used drugs that are on each Part D formulary.
We then calculated the percentage of unique drugs that each Part D plan formulary covers
with utilization management tools.

Enrollment Analysis
We also weighted both the formulary and utilization management tool analysis by
enrollment by dual eligibles. To do so, we applied February 2011 enrollment data to
2011 Part D plans.




OEI-05-10-00390   Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 10 – Donald M. Berwick, M.D.


Data Limitations
We did not assess individual dual eligibles’ prescription drug use or whether individual
dual eligibles are enrolled in Part D plans that include the specific drugs that each
individual uses. Because we relied on a sample of dual eligibles responding to the MCBS
to develop our list of commonly used drugs, it is possible that a particular dual eligible
might not use any of the drugs on our list. However, the drugs most commonly used by
dual-eligible MCBS survey participants in 2007 account for 87 percent of all
prescriptions dispensed to the dual-eligible respondents in the 2007 MCBS.

In addition, more than 80 percent of the commonly used drugs were on the list of drugs
commonly used by dual eligibles in the 2006 OIG report Dual Eligibles’ Transition:
Part D Formularies’ Inclusion of Commonly Used Drugs, OEI-05-06-00090. For the
2006 OIG report, we used Medicaid drug utilization data from 2005 to create the list of
drugs commonly used by dual eligibles, as those data were the most recent available.

Standards
This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation issued by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Part D Plan Formularies Include Between 82 and 100 Percent of the Drugs
Commonly Used by Dual Eligibles
On average, Part D plan formularies include 96 percent of the drugs commonly used by
dual eligibles. Of the 249 unique formularies used by Part D plans in 2011, 14 percent
include all of the commonly used drugs. At the other end of the range, two formularies
include less than 85 percent of the commonly used drugs. CMS generally requires Part D
plan formularies to include at least two drugs, rather than all drugs, in each therapeutic
category or class. Therefore, Part D plan formularies may include drugs that are not
identified as commonly used by dual eligibles and still meet CMS’s formulary
requirements.

Formularies used by PDPs or MA-PDs have the same average rates of inclusion of the
commonly used drugs. On average, formularies used by either PDPs or MA-PDs include
96 percent of the commonly used drugs. PDP formulary inclusion ranges from 88 to
100 percent of the commonly used drugs. The range of formulary inclusion is slightly
larger for MA-PDs, ranging from 82 to 100 percent. Twelve percent of formularies are
offered by both PDPs and MA-PDs.

All dual eligibles throughout the country have the choice of a Part D plan that includes at
least 98 percent of the commonly used drugs. Every PDP region has a plan that includes
at least 99 percent of the commonly used drugs and every MA-PD region has a plan that




OEI-05-10-00390   Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 11 – Donald M. Berwick, M.D.


covers at least 98 percent. Appendix C provides a breakdown of formulary inclusion by
PDP and MA-PD region.

On average, formularies for Part D plans with premiums below the regional benchmark
include 95 percent of the drugs commonly used by dual eligibles. The number of drugs
included by Part D plans with premiums below the regional benchmark is important
because dual eligibles are automatically enrolled in, or annually reassigned to, these
plans. On average, formularies for Part D plans with premiums below the regional
benchmark include 95 percent of the drugs commonly used by dual eligibles. Like
formularies for Part D plans overall, formularies for Part D plans with premiums below
the regional benchmark have a rate of inclusion for drugs commonly used by dual
eligibles that ranges from a low of 82 percent to a high of 100 percent. Approximately
79 percent of dual eligibles are enrolled in Part D plans with premiums below the
regional benchmark.

Ninety percent of dual eligibles are enrolled in Part D plans that include at least
90 percent of the drugs commonly used by dual eligibles. Of the approximately 9 million
dual eligibles, 90 percent are enrolled in Part D plans that use formularies that include at
least 90 percent of the commonly used drugs. Only 1 percent of dual eligibles are
enrolled in Part D plans that use formularies that include less than 85 percent of the
commonly used drugs. Table 1 provides a breakdown of dual eligibles’ enrollment in
Part D plans by the plans’ formulary inclusion rates.


    Table 1: Enrollment of Dual Eligibles in Part D Plans and Formulary Inclusion
    of Commonly Used Drugs
                                                            Number of Dual Eligibles                  Percentage of Dual
   Part D Plans That Include:
                                                                          Enrolled*                    Eligibles Enrolled

   100% of commonly used drugs                                                   229,000                               3%

   95% to 99% of commonly used drugs                                           5,108,000                              56%

   90% to 94% of commonly used drugs                                           2,786,000                              31%

   85% to 89% of commonly used drugs                                             851,000                               9%

   Less than 85% of commonly used drugs                                           75,000                               1%

      Totals                                                                   9,049,000                            100%

 *Rounded to the nearest 1,000.
 Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles and dual eligibles’ enrollment, 2011.




OEI-05-10-00390           Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 12 – Donald M. Berwick, M.D.


Almost 60 Percent of the Drugs Commonly Used by Dual Eligibles Are Included in
All Part D Plan Formularies
Because most of the commonly used drugs are included in a large percentage of
formularies, dual eligibles are guaranteed formulary inclusion of many of these drugs
regardless of the Part D plan in which they are enrolled. In fact, 58 percent of the drugs
commonly used by dual eligibles are included in all 249 formularies. An additional
11 percent of these commonly used drugs are included in all but one or two formularies.

By drug, formulary inclusion ranges from 30 percent to 100 percent. In other words, one
drug commonly used by dual eligibles is included in as few as 30 percent of Part D plan
formularies, and others are included in all plan formularies. The average rate of
formulary inclusion is 96 percent. Table 2 provides a summary of formulary inclusion
rates. Appendix D provides formulary inclusion rates for each of the commonly used
drugs.

                  Table 2: Formulary Inclusion Rates of Commonly
                  Used Drugs
               Percentage of the                        Percentage of the 191 Commonly
               249 Formularies                                           Included Drugs

                                                                                      58%
               100%
                                                                               (111 drugs)
                                                                                       35%
               85% to 99%
                                                                                 (67 drugs)
                                                                                        3%
               75% to 84%
                                                                                  (5 drugs)
                                                                                        4%
               30% to 74%
                                                                                  (8 drugs)
                                                                                     100%
                   Total
                                                                               (191 drugs)
             Source: OIG analysis of formulary inclusion of drugs commonly used by dual
             eligibles, 2011.




Part D plan formularies include certain drugs less frequently than others. Of the
commonly used drugs, 4 percent (eight drugs) are included by less than 75 percent of
Part D plan formularies. Table 3 provides the percentage of formularies covering each of
these eight drugs. Six of the eight drugs are brand-name drugs, which are typically more
costly than generic drugs. Three of the eight drugs are used to treat high blood pressure
and two are used to lower cholesterol.




OEI-05-10-00390      Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 13 – Donald M. Berwick, M.D.




    Table 3: Drugs Included by Less Than 75 Percent of Part D Plan Formularies
                                                                                                           Formulary
    Generic Name of Drug                       Primary Indication(s)
                                                                                                       Inclusion Rate
    Olmesartan medoxomil                       Hypertension (high blood pressure)                                 69%

    Ezetimibe/simvastatin                      Hyperlipidemia (high cholesterol)                                  64%

    Propoxyphene/acetaminophen*                Pain relief                                                        59%

    Eszopiclone                                Insomnia                                                           58%

    Irbesartan                                 Hypertension (high blood pressure)                                 50%

    Irbesartan/hydrochlorothiazide             Hypertension (high blood pressure)                                 49%

    Fluvastatin sodium                         Hyperlipidemia (high cholesterol)                                  47%

                                               Gastroesophageal reflux disease, ulcers, and
    Rabeprazole sodium                                                                                            30%
                                               Zollinger-Ellison syndrome
  * In November 2010, FDA requested that drug makers voluntarily withdraw propoxyphene/acetaminophen from the market
  because of serious or fatal heart risks. According to FDA, drug makers agreed to this request.
  Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2011.


Although Part D plan formularies frequently omit these eight drugs, they all cover other
therapeutically alternative drugs. For each of the eight drugs, 100 percent of formularies
cover at least one therapeutically alternative drug. For seven of the eight drugs,
100 percent of formularies cover at least one therapeutically alternative drug that is also
on the list of 191 drugs commonly used by dual eligibles.

There are several means by which dual eligibles can obtain a nonformulary drug, all of
which require them to take additional action. Obtaining therapeutically alternative drugs
requires that dual eligibles get new prescriptions from their doctors. Dual eligibles may
also submit statements of medical necessity from their physicians as part of appeals to
obtain coverage of nonformulary drugs. Finally, dual eligibles may switch to Part D
plans that include their drugs (with the new coverage effective the following month).

Part D Plan Formularies Vary in the Rate at Which They Apply Utilization
Management Tools to the Drugs Commonly Used by Dual Eligibles
The rate at which Part D plan formularies apply utilization management tools varies from
between 0 and 45 percent of the unique drugs. On average, Part D plan formularies apply
utilization management tools to 19 percent of the unique drugs that compose the drugs
commonly used by dual eligibles. Utilization management tools can help Part D plans
and the Part D program limit the cost of drug coverage and can help prevent the
overutilization or underutilization of certain drugs. Formularies for Part D plans with
premiums below the regional benchmark apply utilization management tools at the same
rates as Part D plan formularies overall.




OEI-05-10-00390          Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 14 – Donald M. Berwick, M.D.


Part D plan formularies also vary in the rate at which they apply individual utilization
management tools. The rate at which Part D plan formularies apply quantity limits, the
most frequently applied utilization management tool, varies from between zero and
45 percent of the unique drugs. The rates at which Part D plan formularies apply prior
authorization and step therapy vary from 0 to 35 percent and 0 to 22 percent,
respectively.

Although Part D plan formularies vary in the rates at which they apply utilization
management tools, Part D plan formularies mostly apply these tools to brand-name drugs.
Sixty-four percent of the unique drugs to which Part D plan formularies apply utilization
management tools are brand-name drugs. Limiting brand-name drug utilization can help
Part D plans minimize the cost of drug coverage.

The majority of dual eligibles are enrolled in Part D plans that apply utilization
management tools to at least 20 percent of the unique drugs composing the commonly
used drugs. Fifty-eight percent of dual eligibles are enrolled in Part D plans that use
formularies that apply utilization management tools to at least 20 percent of the unique
drugs. By comparison, 53 percent of all Medicare beneficiaries are enrolled in these
same Part D plans. Eighteen percent of dual eligibles are enrolled in Part D plans that use
formularies that apply utilization management tools to at least 40 percent of the unique
drugs. Table 4 provides a breakdown of dual eligibles’ enrollment in Part D plans by the
plans’ application of utilization management tools.

          Table 4: Beneficiary Enrollment and Part D Plan Formularies’
          Application of Utilization Management Tools to Commonly Used
          Drugs
                                                                                                     Percentage of
          Percentage of Unique Drugs to                      Number of          Percentage of
                                                                                                         Medicare
          Which Utilization Management                       Part D Plan        Dual Eligibles
                                                                                                      Beneficiaries
          Tools Are Applied                                 Formularies              Enrolled
                                                                                                          Enrolled

          40% to 45%                                                    14                 18%                 12%

          30% to 39%                                                    29                 14%                 24%

          20% to 29%                                                    75                 26%                 17%

          10% to 19%                                                    76                 39%                 39%

          Less than 10%                                                 55                  4%                     7%

              Totals                                                    249             100*%                100%*

          *Percentages do not add to 100 percent because of rounding.
          Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles and dual eligible
          enrollment, 2011.




OEI-05-10-00390        Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 15 – Donald M. Berwick, M.D.


CONCLUSION

When establishing formularies and applying utilization management tools, Part D plans
need to balance Medicare beneficiaries’ needs for adequate prescription drug coverage
with the need to contain costs for themselves and for the Part D program. Part D plan
formularies do not have to include every available drug; rather, to meet CMS’s formulary
requirements, they must include at least two drugs in each therapeutic category or class.
For example, for each of the eight drugs that this report identifies as being included by
less than 75 percent of Part D plan formularies, all Part D plan formularies cover at least
one therapeutically alternative drug. Part D plan formularies may also institute utilization
management tools to ensure appropriate utilization as well as to control costs.

For the drugs commonly used by dual eligibles, we found that the rate of formulary
inclusion is high with some variation. On average, Part D plan formularies include
96 percent of the commonly used drugs. A few Part D plan formularies include as few as
82 percent of the commonly used drugs. Formulary inclusion rates are similar
irrespective of whether Part D plans are PDPs or MA-PDs. Further, formularies for
Part D plans with premiums below the regional benchmark include the commonly used
drugs at the same rate as Part D plan formularies overall.

We found greater variation in the rate at which Part D plan formularies apply utilization
management tools to the unique drugs that compose the drugs commonly used by dual
eligibles. Some Part D plan formularies apply utilization management tools to none of
the unique drugs, whereas others apply utilization management tools to 45 percent of the
unique drugs.

Because some variation exists both in Part D plan formularies’ inclusion of the
commonly used drugs and in their application of utilization management tools to these
drugs, some dual eligibles may need to navigate the options available for accessing the
drugs they take. They could do so by appealing prescription drug coverage decisions,
switching prescription drugs, or switching Part D plans. Any of these scenarios requires
dual eligibles to have a certain level of understanding of Medicare Part D. Dual eligibles
may have to take specific actions that are minor administrative barriers to some and
major barriers to others.

As mandated by the ACA, OIG will continue to monitor the extent to which Part D plan
formularies cover drugs that dual eligibles commonly use. In addition, OIG will continue
to monitor Part D plan formularies’ application of utilization management tools to these
drugs.

This report is being issued directly in final form because it contains no recommendations.
For CMS’s reference, we have included the list of the 200 drugs most commonly used by




OEI-05-10-00390   Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 16 – Donald M. Berwick, M.D.


dual eligibles. If you have comments or questions about this report, please provide them
within 60 days. Please refer to report number OEI-05-10-00390 in all correspondence.




OEI-05-10-00390   Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 17 – Donald M. Berwick, M.D.


APPENDIX A

Section 3313 of the Patient Protection and Affordable Care Act of 2010

SEC. 3313. OFFICE OF THE INSPECTOR GENERAL STUDIES AND REPORTS.

(a) STUDY AND ANNUAL REPORT ON PART D FORMULARIES’ INCLUSION
OF DRUGS COMMONLY USED BY DUAL ELIGIBLES.—

(1) STUDY.—The Inspector General of the Department of Health and Human Services
shall conduct a study of the extent to which formularies used by prescription drug plans
and MA-PD plans under Part D include drugs commonly used by full benefit dual
eligible individuals (as defined in section 1935(c)(6) of the Social Security Act
(42 U.S.C. 1396u–5(c)(6)).

(2) ANNUAL REPORTS.—Not later than July 1 of each year (beginning with 2011), the
Inspector General shall submit to Congress a report on the study conducted under
paragraph (1), together with such recommendations as the Inspector General determines
appropriate.




OEI-05-10-00390   Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
Page 18 – Donald M. Berwick, M.D.


APPENDIX B

Nine Drugs Commonly Used by Dual Eligibles and Excluded Under Part D


                                                                          Reason Excluded Under
                   Generic Name
                                                                                          Part D
                   Alprazolam                                                        Benzodiazepine
                   Cetirizine hydrochloride                                   Non-prescription drug
                   Clonazepam                                                        Benzodiazepine
                   Diazepam                                                          Benzodiazepine
                   Folic acid                                            Vitamin or mineral product
                   Lorazepam                                                         Benzodiazepine
                   Omeprazole magnesium                                       Non-prescription drug
                   Polyethylene glycol 3350                                   Non-prescription drug
                   Temazepam                                                         Benzodiazepine
                  Source: Office of Inspector General analysis of formulary inclusion of drugs commonly
                  used by dual eligibles, 2011.




OEI-05-10-00390     Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
       Page 19 – Donald M. Berwick, M.D.


       APPENDIX C

       Formulary Inclusion of Stand-Alone Prescription Drug Plans* and Medicare
       Advantage Prescription Drug Plans** by Regions

  Table C-1: PDP Formulary Inclusion
  PDP                                                 Number of      Average Formulary    Minimum         Maximum
              State(s)
  Region                                                 PDPs           Inclusion Rate9       Rate            Rate

  1           Maine, New Hampshire                           30                   95%         88%               99%
              Connecticut, Massachusetts, Rhode
  2                                                          34                   95%         88%             100%
              Island, Vermont
  3           New York                                       33                   95%         88%             100%
  4           New Jersey                                     33                   95%         88%             100%

              Delaware, the District of Columbia,
  5                                                          33                   95%         88%             100%
              Maryland
  6           Pennsylvania, West Virginia                    38                   95%         88%             100%
  7           Virginia                                       32                   95%         88%               99%
  8           North Carolina                                 33                   95%         88%             100%
  9           South Carolina                                 34                   95%         88%               99%
  10          Georgia                                        32                   95%         88%               99%
  11          Florida                                        32                   95%         88%             100%
  12          Alabama, Tennessee                             34                   95%         88%               99%
  13          Michigan                                       35                   95%         88%             100%
  14          Ohio                                           34                   95%         88%             100%
  15          Indiana, Kentucky                              32                   95%         88%             100%
  16          Wisconsin                                      32                   95%         88%               99%
  17          Illinois                                       35                   95%         88%             100%
  18          Missouri                                       32                   95%         88%             100%
  19          Arkansas                                       34                   95%         88%               99%
  20          Mississippi                                    32                   95%         88%               99%
  21          Louisiana                                      32                   95%         88%             100%
  22          Texas                                          33                   95%         88%             100%
  23          Oklahoma                                       33                   95%         88%               99%
  24          Kansas                                         33                   95%         88%               99%
              Iowa, Minnesota, Montana, Nebraska,
  25                                                         33                   95%         88%               99%
              North Dakota, South Dakota, Wyoming
  26          New Mexico                                     32                   95%         88%             100%
  27          Colorado                                       31                   95%         88%             100%
  28          Arizona                                        30                   95%         88%             100%
  29          Nevada                                         31                   95%         88%             100%
  30          Oregon, Washington                             32                   95%         88%             100%
                                                                                               continued on next page

*PDP.
**MA-PD.



       OEI-05-10-00390         Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
      Page 20 – Donald M. Berwick, M.D.



 Table C-1: PDP Formulary Inclusion, continued
 PDP                                                             Number of            Average Formulary            Minimum        Maximum
               State(s)
 Region                                                             PDPs                 Inclusion Rate9               Rate           Rate

 31            Idaho, Utah                                                 35                           95%                 88%       99%

 32            California                                                  33                           95%                 88%      100%
 33            Hawaii                                                      28                           95%                 88%      100%
 34            Alaska                                                      29                           95%                 88%       99%
Source: Office of Inspector General (OIG) analysis of formulary inclusion of drugs commonly used by dual eligibles, 2011.




      OEI-05-10-00390           Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
      Page 21 – Donald M. Berwick, M.D.




 Table C-2: MA-PD Formulary Inclusion by Region
 MA-PD                                                          Number of            Average Formulary    Minimum    Maximum
               State(s)
 Region*                                                          MA-PDs                Inclusion Rate9       Rate       Rate

 1             Maine, New Hampshire                                       29                      96%         91%        99%

               Connecticut, Massachusetts, Rhode
 2                                                                        55                      97%         92%       100%
               Island, Vermont

 3             New York                                                 173                       97%         91%       100%

 4             New Jersey                                                 30                      95%         91%       100%

               Delaware, the District of Columbia,
 5                                                                        37                      93%         82%        98%
               Maryland

 6             Pennsylvania, West Virginia                              126                       97%         88%       100%

 7             North Carolina, Virginia                                 110                       96%         82%       100%

 8             Georgia, South Carolina                                  113                       96%         82%        99%

 9             Florida                                                  242                       97%         85%       100%

 10            Alabama, Tennessee                                         81                      96%         91%        98%

 11            Michigan                                                   56                      97%         90%       100%

 12            Ohio                                                       71                      96%         82%       100%

 13            Indiana, Kentucky                                          70                      97%         91%        99%

 14            Illinois, Wisconsin                                      123                       97%         86%       100%

 15            Arkansas, Missouri                                       100                       96%         91%       100%

 16            Louisiana, Mississippi                                     84                      96%         91%       100%

 17            Texas                                                    146                       96%         91%        99%

 18            Kansas, Oklahoma                                           53                      97%         91%       100%

               Iowa, Minnesota, Montana, Nebraska,
 19                                                                     109                       97%         88%       100%
               North Dakota, South Dakota, Wyoming

 20            Colorado, New Mexico                                       57                      95%         82%       100%

 21            Arizona                                                    71                      95%         89%       100%

 22            Nevada                                                     42                      96%         91%       100%

 23            Idaho, Oregon, Utah, Washington                          153                       96%         82%       100%

 24            California                                               213                       95%         82%       100%

 25            Hawaii                                                     18                      94%         82%        98%

*Region 26, which covers Alaska, has no MA-PDs available for 2011.
Source: OIG analysis of formulary inclusion of drugs commonly used by dual eligibles, 2011.




      OEI-05-10-00390             Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
     Page 22 – Donald M. Berwick, M.D.


     APPENDIX D

     Commonly Used Drugs and Formulary Inclusion
Table D-1: 200 Drugs Commonly Used by Dual Eligibles
                                                                                       Number of     Percentage of
                                    Sample      Projected   95-Percent Confidence
Generic Name                                                                          Formularies     Formularies
                                      Size*       Drugs*                Interval*9      Including        Including
Furosemide                            4,077    12,777,427   11,494,529 - 14,060,326          249             100%
Lisinopril                            3,580    12,151,502   10,576,310 - 13,726,694          249             100%
Levothyroxine sodium                  3,589    11,127,522    9,954,546 - 12,300,497          249             100%
Hydrocodone bit/acetaminophen         3,620    10,565,039    9,157,245 - 11,972,832          249             100%
Potassium chloride                    2,995     9,539,793    8,192,121 - 10,887,464          249             100%
Atorvastatin calcium                  2,769     9,511,085    8,153,698 - 10,868,472          219               88%
Metformin hydrochloride (HCl)         2,451     9,337,868    7,956,543 - 10,719,194          249             100%
Simvastatin                           2,572     8,787,495     7,703,775 - 9,871,216          248             100%
Amlodipine besylate                   2,182     7,058,486     6,087,271 - 8,029,700          249             100%
Omeprazole                            2,215     7,025,621     6,049,913 - 8,001,330          247               99%
Atenolol                              1,995     7,014,178     5,799,615 - 8,228,742          249             100%
Warfarin sodium                       2,327     6,816,713     5,528,604 - 8,104,823          249             100%
Albuterol sulfate                     1,995     6,527,476     5,303,260 - 7,751,692          249             100%
Clopidogrel bisulfate                 1,908     6,517,472     5,554,124 - 7,480,821          249             100%
Metoprolol tartrate                   1,916     6,040,847     5,115,012 - 6,966,682          249             100%
Metoprolol succinate                  1,765     5,707,503     4,793,878 - 6,621,128          247               99%
Hydrochlorothiazide                   1,743     5,616,691     4,823,923 - 6,409,460          249             100%
Esomeprazole magnesium
                                      1,518     4,734,962     3,874,345 - 5,595,578          189               76%
trihydrate
Lansoprazole                          1,503     4,612,946     3,647,598 - 5,578,293          211               85%
Gabapentin                            1,411     4,511,832     3,754,739 - 5,268,925          249             100%
Glipizide                             1,194     4,360,420     3,538,784 - 5,182,055          249             100%
Diltiazem HCl                         1,247     4,118,699     3,359,488 - 4,877,910          249             100%
Escitalopram oxalate                  1,385     3,952,017     3,273,236 - 4,630,798          222               89%
Sertraline HCl                        1,447     3,923,532     3,334,070 - 4,512,993          249             100%
Ranitidine HCl                        1,277     3,653,877     3,002,661 - 4,305,092          249             100%
Oxycodone HCl/acetaminophen           1,218     3,635,428     2,811,065 - 4,459,792          249             100%
Quetiapine fumarate                   1,503     3,626,187     2,842,454 - 4,409,919          249             100%
Alendronate sodium                      954     3,560,263     2,863,184 - 4,257,341          249             100%
Montelukast sodium                    1,127     3,509,414     2,669,878 - 4,348,950          248             100%
                                                                                              continued on next page




     OEI-05-10-00390        Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
 Page 23 – Donald M. Berwick, M.D.




Table D-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                                       Number of     Percentage of
                                    Sample      Projected   95-Percent Confidence
Generic Name                                                                          Formularies     Formularies
                                      Size*       Drugs*                Interval*9      Including        Including
Fluticasone/salmeterol                1,030     3,470,763     2,735,303 - 4,206,224          247               99%
Isosorbide mononitrate                1,086     3,458,585     2,741,228 - 4,175,942          249             100%
Pantoprazole sodium                     949     3,394,600     2,671,993 - 4,117,207          200               80%
Donepezil HCl                         1,164     3,393,695     2,895,181- 3,892,210           233               94%
Digoxin                               1,031     3,371,050     2,704,365 - 4,037,735          249             100%
Trazodone HCl                         1,165     3,334,296     2,638,788 - 4,029,804          249             100%
Paroxetine HCl                        1,013     3,334,072     2,566,110 - 4,102,033          249             100%
Divalproex sodium                     1,460     3,313,752     2,554,887 - 4,072,618          249             100%
Zolpidem tartrate                     1,048     3,133,709     2,513,629 - 3,753,788          247               99%
Alprazolam                              957     3,126,563     2,527,121 - 3,726,005    Excluded           Excluded
Risperidone                           1,350     3,104,611     2,434,354 - 3,774,868          249             100%
Carvedilol                              887     3,074,987     2,454,495 - 3,695,480          249             100%
Pioglitazone HCl                        830     3,063,261     2,395,363 - 3,731,158          249             100%
Valsartan                               948     3,053,856     2,398,364 - 3,709,348          238               96%
Clonidine HCl                           949     3,004,950     2,445,603 - 3,564,296          249             100%
Fluticasone propionate                  841     2,892,719     2,333,605 - 3,451,833          249             100%
Risedronate sodium                      777     2,891,758     2,168,585 - 3,614,931          195               78%
Citalopram hydrobromide               1,024     2,877,584     2,031,680 - 3,723,489          248             100%
Propoxyphene/acetaminophen              918     2,751,015     2,258,560 - 3,243,471          147               59%
Enalapril maleate                       817     2,731,343     2,163,046 - 3,299,640          249             100%
Tramadol HCl                            914     2,729,513     2,217,482 - 3,241,544          249             100%
Prednisone                              948     2,727,256     2,262,168 - 3,192,343          249             100%
Venlafaxine HCl                         855     2,636,123     1,658,931 - 3,613,316          249             100%
Insulin glargine, human
                                        870     2,621,879     2,042,038 - 3,201,721          234               94%
recombinant analog
Olanzapine                            1,039     2,615,352     1,970,439 - 3,260,266          249             100%
Ezetimibe/simvastatin                   701     2,557,026     1,998,199 - 3,115,853          160               64%
Glyburide                               740     2,459,147     1,854,805 - 3,063,488          248             100%
Lovastatin                              668     2,436,700     1,821,359 - 3,052,040          240               96%
Metoclopramide HCl                      593     2,394,861     1,530,517 - 3,259,205          249             100%
Amitriptyline HCl                       693     2,369,238     1,767,592 - 2,970,884          249             100%
                                                                                              continued on next page




 OEI-05-10-00390          Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
 Page 24 – Donald M. Berwick, M.D.




Table D-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                                        Number of     Percentage of
                                     Sample      Projected   95-Percent Confidence
Generic Name                                                                           Formularies     Formularies
                                       Size*       Drugs*                Interval*9      Including        Including
Ibuprofen                                754     2,271,424     1,779,250 - 2,763,598          249             100%
Nitroglycerin                            734     2,213,718     1,754,009 - 2,673,427          249             100%
Triamterene/hydrochlorothiazide          751     2,207,727     1,756,978 - 2,658,477          249             100%
Fluoxetine HCl                           860     2,195,279     1,797,853 - 2,592,704          249             100%
Rosiglitazone maleate                    637     2,145,517     1,592,639 - 2,698,395          229               92%
Oxycodone HCl                            776     2,142,921     1,549,037 - 2,736,805          247               99%
Nifedipine                               656     2,120,320     1,450,216 - 2,790,424          249             100%
Tamsulosin HCl                           595     2,074,869     1,445,951 - 2,703,788          239               96%
Amlodipine besylate/benazepril           637     2,001,914     1,465,679 - 2,538,148          243               98%
Mirtazapine                              746     2,001,234     1,462,548 - 2,539,921          249             100%
Allopurinol                              638     1,997,730     1,527,395 - 2,468,065          249             100%
Rosuvastatin calcium                     580     1,988,951     1,456,510 - 2,521,392          211               85%
Bupropion HCl                            704     1,987,687     1,465,122 - 2,510,253          249             100%
Spironolactone                           596     1,943,670     1,425,116 - 2,462,223          249             100%
Fexofenadine HCl                         671     1,929,230     1,312,291 - 2,546,169          249             100%
Oxybutynin chloride                      584     1,913,166     1,281,868 - 2,544,464          249             100%
Phenytoin sodium extended                818     1,872,447     1,412,431 - 2,332,463          249             100%
Naproxen                                 710     1,859,738     1,384,929 - 2,334,547          249             100%
Tiotropium bromide                       447     1,852,676     1,314,499 - 2,390,853          249             100%
Ipratropium/albuterol sulfate            552     1,828,202     1,320,203 - 2,336,200          239               96%
Human insulin neutral protamine
                                         533     1,805,084     1,326,756 - 2,283,412          249             100%
hagedorn/regular human insulin
Ciprofloxacin HCl                        592     1,787,974     1,493,189 - 2,082,759          249             100%
Celecoxib                                517     1,776,141     1,353,725 - 2,198,557          235               94%
Aripiprazole                             770     1,773,656     1,157,694 - 2,389,618          249             100%
Ezetimibe                                518     1,765,552     1,234,755 - 2,296,349          248             100%
Valsartan/hydrochlorothiazide            500     1,760,273     1,172,232 - 2,348,313          236               95%
Lorazepam                                593     1,733,563     1,306,363 - 2,160,763    Excluded           Excluded
Carbamazepine                            754     1,708,009     1,273,991 - 2,142,028          249             100%
Memantine HCl                            694     1,677,803     1,327,062 - 2,028,544          249             100%
Cyclobenzaprine HCl                      684     1,668,548     1,347,110 - 1,989,986          242               97%
                                                                                               continued on next page




 OEI-05-10-00390           Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
 Page 25 – Donald M. Berwick, M.D.




Table D-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                                        Number of     Percentage of
                                     Sample      Projected   95-Percent Confidence
Generic Name                                                                           Formularies     Formularies
                                       Size*       Drugs*                Interval*9      Including        Including
Acetaminophen with codeine               550     1,657,322     1,276,026 - 2,038,619          249             100%
Duloxetine HCl                           551     1,646,063     1,180,919 - 2,111,207          249             100%
Carisoprodol                             619     1,641,904     1,108,632 - 2,175,176          219               88%
Azithromycin                             566     1,618,927     1,376,359 - 1,861,495          249             100%
Benztropine mesylate                     796     1,618,896     1,060,569 - 2,177,224          249             100%
Levofloxacin                             525     1,615,709     1,304,334 - 1,927,085          220               88%
Losartan potassium                       433     1,614,799     1,162,715 - 2,066,884          232               93%
Clozapine                                588     1,586,624      586,928 - 2,586,320           249             100%
Promethazine HCl                         609     1,557,329     1,197,304 - 1,917,354          235               94%
Topiramate                               563     1,536,671      503,601 - 2,569,741           249             100%
Famotidine                               511     1,531,816     1,102,603 - 1,961,030          247               99%
Fentanyl                                 520     1,507,159     1,035,967 - 1,978,351          242               97%
Meclizine HCl                            430     1,476,528     1,101,060 - 1,851,997          229               92%
Triamcinolone acetonide                  490     1,470,186     1,062,870 - 1,877,501          249             100%
Polyethylene glycol 3350                 527     1,468,094     1,174,696 - 1,761,492    Excluded           Excluded
Lisinopril/hydrochlorothiazide           425     1,465,727     1,091,460 - 1,839,993          248             100%
Pravastatin sodium                       408     1,426,419      902,937 - 1,949,901           246               99%
Mometasone furoate                       410     1,403,173      943,387 - 1,862,959           247               99%
Glimepiride                              352     1,397,945      893,743 - 1,902,147           248             100%
Sulfamethoxazole/trimethoprim            523     1,396,698     1,176,645 - 1,616,750          249             100%
Neutral protamine hagedorn,
                                         393     1,373,091      931,526 - 1,814,655           249             100%
human insulin isophane
Pregabalin                               466     1,366,898      919,796 - 1,814,000           249             100%
Brimonidine tartrate                     388     1,320,432      873,395 - 1,767,469           249             100%
Irbesartan                               312     1,318,177      813,749 - 1,822,604           125               50%
Amoxicillin trihydrate                   454     1,309,462     1,075,245 - 1,543,678          249             100%
Cephalexin monohydrate                   507     1,307,532     1,127,307 - 1,487,756          249             100%
Raloxifene HCl                           320     1,302,736      615,860 - 1,989,613           249             100%
Fenofibrate nanocrystallized             480     1,291,694      847,376 - 1,736,013           188               76%
Clonazepam                               546     1,263,661      929,985 - 1,597,337      Excluded          Excluded
Estrogens, conjugated                    420     1,223,449      820,507 - 1,626,390           248             100%
                                                                                               continued on next page




 OEI-05-10-00390           Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
 Page 26 – Donald M. Berwick, M.D.




Table D-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                                     Number of     Percentage of
                                   Sample      Projected   95-Percent Confidence
Generic Name                                                                        Formularies     Formularies
                                     Size*       Drugs*                Interval*9     Including        Including
Lidocaine                              383     1,209,849      884,949 - 1,534,750          249             100%
Buspirone HCl                          438     1,198,749      768,521 - 1,628,976          249             100%
Lactulose                              435     1,179,101      821,601 - 1,536,601          249             100%
Tolterodine tartrate                   417     1,169,170      820,678 - 1,517,663          218               88%
Benazepril HCl                         314     1,128,689      647,767 - 1,609,612          248             100%
Baclofen                               406     1,118,826      669,463 - 1,568,190          249             100%
Ramipril                               364     1,110,784      712,041 - 1,509,527          240               96%
Verapamil HCl                          362     1,107,285      732,129 - 1,482,440          249             100%
Morphine sulfate                       427     1,103,898      764,321 - 1,443,475          249             100%
Ziprasidone HCl                        468     1,093,177      521,471 - 1,664,884          249             100%
Cetirizine HCl                         336     1,056,576      681,238 - 1,431,914     Excluded          Excluded
Diazepam                               401     1,026,894      768,735 - 1,285,053     Excluded          Excluded
Hydroxyzine HCl                        378     1,026,368      746,962 - 1,305,775          237               95%
Insulin regular, human                 342     1,024,407      721,721 - 1,327,094          249             100%
Carbidopa/levodopa                     376       997,534      679,004 - 1,316,064          249             100%
Isosorbide dinitrate                   305       994,437      638,305 - 1,350,569          249             100%
Latanoprost                            299       970,335      675,857 - 1,264,814          224               90%
Nystatin                               364       969,703      738,140 - 1,201,266          249             100%
Meloxicam                              309       956,673      713,757 - 1,199,588          246               99%
Propranolol HCl                        354       946,417      596,114 - 1,296,721          249             100%
Levetiracetam                          370       936,163      578,489 - 1,293,838          249             100%
Ipratropium bromide                    314       922,228      597,469 - 1,246,987          249             100%
Gemfibrozil                            295       921,373      573,994 - 1,268,752          249             100%
Ropinirole HCl                         308       881,021      608,079 - 1,153,963          249             100%
Insulin aspart                         306       870,863      624,044 - 1,117,682          241               97%
Hydralazine HCl                        231       862,014      545,877 - 1,178,151          249             100%
Lamotrigine                            455       827,055      545,735 - 1,108,375          249             100%
Temazepam                              244       816,043      525,866 - 1,106,220    Excluded           Excluded
Terazosin HCl                          230       812,406      541,091 - 1,083,720          249             100%
Colchicine                             267       810,269      559,038 - 1,061,501          249             100%
                                                                                            continued on next page




 OEI-05-10-00390         Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
 Page 27 – Donald M. Berwick, M.D.




Table D-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                                      Number of     Percentage of
                                    Sample      Projected   95-Percent Confidence
Generic Name                                                                         Formularies     Formularies
                                      Size*       Drugs*                Interval*9     Including        Including
Felodipine                              235       769,722      463,439 - 1,076,005          243               98%
Bumetanide                              191       768,702      457,022 - 1,080,382          248             100%
Amoxicillin trihydrate/potassium
                                        266       764,684        586,528 - 942,840          249             100%
clavulanate
Travoprost                              229       756,219      480,776 - 1,031,661          231               93%
Diphenoxylate HCl/atropine              221       754,080      466,449 - 1,041,710          245               98%
Megestrol acetate                       271       740,912        538,759 - 943,066          249             100%
Diclofenac sodium                       212       736,974        486,774 - 987,175          249             100%
Losartan/hydrochlorothiazide            221       712,163        449,294 - 975,031          234               94%
Tizanidine HCl                          256       694,162        428,677 - 959,648          243               98%
Theophylline anhydrous                  140       684,833       82,581 - 1,287,085          249             100%
Doxazosin mesylate                      195       670,456        429,203 - 911,709          249             100%
Folic acid                              215       658,492        443,715 - 873,270    Excluded           Excluded
Tramadol HCl/acetaminophen              217       649,721        397,502 - 901,940          218               88%
Irbesartan/hydrochlorothiazide          159       643,163        328,146 - 958,181          121               49%
Doxycycline hyclate                     269       617,464        480,356 - 754,572          249             100%
Budesonide                              209       609,856        345,874 - 873,839          230               92%
Moxifloxacin HCl                        208       608,086        460,483 - 755,689          240               96%
Dutasteride                             158       605,711        313,522 - 897,900          232               93%
Olmesartan medoxomil                    179       601,304        393,023 - 809,585          171               69%
Nabumetone                              188       594,424        353,638 - 835,210          247               99%
Eszopiclone                             211       593,130        353,762 - 832,498          145               58%
Timolol maleate                         204       591,072        361,329 - 820,815          249             100%
Methylprednisolone                      181       577,634        426,689 - 728,578          249             100%
Lithium carbonate                       278       573,115        326,818 - 819,413          249             100%
Fluconazole                             208       573,017        411,820 - 734,214          249             100%
Olopatadine HCl                         214       570,664        400,211 - 741,118          226               91%
Amiodarone HCl                          147       554,006        315,652 - 792,360          249             100%
Metolazone                              162       540,187        330,312 - 750,063          247               99%
Dicyclomine HCl                         194       537,393        303,002 - 771,785          226               91%
Fosinopril sodium                       154       534,663        231,594 - 837,731          243               98%
                                                                                             continued on next page




 OEI-05-10-00390          Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
    Page 28 – Donald M. Berwick, M.D.




 Table D-1: 200 Drugs Commonly Used by Dual Eligibles, continued
                                                                                                                  Number of      Percentage of
                                                 Sample         Projected        95-Percent Confidence
 Generic Name                                                                                                    Formularies      Formularies
                                                   Size*          Drugs*                      Interval*            Including         Including
 Torsemide                                            165          528,402              271,876 - 784,927                 244             98%
 Calcitonin, salmon, synthetic                        207          527,733              256,162 - 799,304                 249           100%
 Estradiol                                            137          522,640              325,468 - 719,811                 249           100%
 Oxcarbazepine                                        324          520,192              330,601 - 709,783                 249           100%
 Rabeprazole sodium                                   153          518,430              245,457 - 791,402                  75             30%
 Sotalol HCl                                          136          517,828              219,069 - 816,586                 249           100%
 Nitrofurantoin/nitrofuran macrobid                   189          517,759              390,147 - 645,370                 246             99%
 Omeprazole magnesium                                 190          516,660              300,055 - 733,265             Excluded      Excluded
 Aspirin/dipyridamole                                 165          516,070              290,485 - 741,656                 249           100%
 Captopril                                            144          510,883              285,878 - 735,888                 248           100%
 Metronidazole                                        185          510,150              366,545 - 653,756                 249           100%
 Quinapril HCl                                        187          505,622              314,655 - 696,588                 243             98%
 Fluvastatin sodium                                   116          504,417              259,785 - 749,049                 117             47%
 Labetalol HCl                                        150          501,741              237,363 - 766,119                 248           100%
 Hydroxyzine pamoate                                  232          500,012              278,759 - 721,265                 222             89%
 Amylase/lipase/protease                              141          490,764              231,696 - 749,832                 233             94%
 Indomethacin                                         127          489,032              246,451 - 731,612                 245             98%
 Prednisolone acetate                                 138          480,194              316,967 - 643,421                 249           100%
 Bimatoprost                                          153          474,235              257,753 - 690,717                 205             82%
 Finasteride                                          130          471,681              241,566 - 701,795                 249           100%
 Hydrocortisone                                       170          470,577              310,651 - 630,502                 249           100%

*Sample is from the 2007 Medicare Current Beneficiary Survey. Projections and confidence intervals are derived from its survey methodology.
Source: Office of Inspector General analysis of formulary inclusion of drugs commonly used by dual eligibles, 2011.




    OEI-05-10-00390             Part D Plans Generally Cover Drugs Commonly Used by Dual Eligibles
